Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grant to the Savannah-Chatham County, 
Georgia, School Police Department

Report No. GR-40-04-003


February 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the grant awarded by the Office of Community Oriented Policing Services (COPS Office) to the Savannah-Chatham County, Georgia School Police Department (SCCSPD).  The purpose of the grant is to provide funding directly to the local jurisdiction for the hiring and deployment of career law enforcement officers in and around primary and secondary schools.  The COPS Office awarded the SCCSPD $1,080,320 to hire ten new police officers to serve in the SCCSPD.
We found the SCCSPD to be in material compliance with all six COPS grant requirements that we tested.  We reviewed the grantee's compliance with six essential grant conditions and found the grantee's budgeting for officers, hiring of officers, source of local matching funds, reimbursement requests, retention of officer positions, and types of community policing to be acceptable.
Our audit objectives, scope, and methodology appear in Appendix I.